SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, D.C. 20005
+1 202 736 8000
+1 202 736 8711 FAX
+1 202 736 8000
JGREEN@SID LEY.C OM
AMERICA • ASIA PACIFIC

• EUROPE

CERTIFICATE OF SERVICE
No. 20Derek Michael Rigsby,
v.

Petitioner

Colorado,
Respondent.
I, Jeffrey T. Green, do hereby certify that, on this 9th day of February, 2021, I
caused one copy of the petition for a writ of certiorari in the foregoing case to be
served by first class mail, postage prepaid, on the following party:
Philip J. Weiser
Colorado Office of the Attorney General
1300 Broadway
10th Floor
Denver, CO 80203

/s/ Jeffrey T. Green
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000
jgreen@sidley.com

Sidley Austin (DC) LLP is a Delaware limited liability partnership doing business as Sidley Austin LLP and practicing in affiliation with other Sidley Austin partnerships.

